                                     SOCIAL SECURITY
MEMORANDUM


Date:   July 12, 2004                                                      Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Disabled Title II Beneficiaries with Earnings Reported on the Master Earnings File
        (A-01-03-13019)


        The attached final report presents the results of our audit. Our objective was to
        determine whether the Social Security Administration evaluated earnings reported to the
        Master Earnings File for disabled individuals receiving benefits under Title II of the
        Social Security Act.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                           S
                                                           Patrick P. O'Carroll, Jr.


        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        DISABLED TITLE II
   BENEFICIARIES WITH EARNINGS
        REPORTED ON THE
      MASTER EARNINGS FILE

     July 2004   A-01-03-13019




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                 Executive Summary
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA)
evaluated earnings reported to the Master Earnings File (MEF) for disabled individuals
receiving benefits under Title II of the Social Security Act.

BACKGROUND
An individual is considered disabled if he or she is unable to engage in any substantial
gainful activity (SGA). Generally, individuals receiving disability benefits may test their
ability to return to work during a 9-month trial work period. After the trial work period is
completed, individuals may not receive benefits for any months during which they
engage in SGA. (See Appendix A for more information on SGA.)

Although disabled Title II beneficiaries are required to report work activity, individuals
often fail to report their earnings. Consequently, SSA compares earnings reported on
the MEF to the benefit rolls. This enforcement process alerts the Agency to
beneficiaries with potentially unevaluated substantial earnings after the individuals’
disabilities began.

RESULTS OF REVIEW
SSA evaluated the earnings reported on the MEF for some beneficiaries receiving
benefits as of March 2002. However, we found that a substantial portion of the earnings
were not evaluated by the Agency. Based on the results of our sample, we estimate
that
    Approximately $1.37 billion in overpayments resulting from about 63,000 disabled
       beneficiaries’ work activity was not identified;
    About 39,100 disabled beneficiaries (of the estimated 63,000 beneficiaries
       described above) were no longer entitled to benefits because of their substantial
       work; and
    SSA had not identified about 34,760 disabled beneficiaries who engaged in trial
       work.

CONCLUSIONS AND RECOMMENDATIONS
SSA did not evaluate all earnings reported to the MEF for individuals receiving Title II
disability benefits as of March 2002. Because a significant amount of Title II funds have
been overpaid, we believe additional attention should be devoted to this important
workload. Therefore, we make several recommendations that are discussed in detail in
this report.

AGENCY COMMENTS
SSA agreed with our recommendations.


Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)
                                                                        Table of Contents
                                                                                                             Page


INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................4

    Sample Cases with Earnings SSA Did Not Evaluate Prior to our Audit .............5

             Beneficiaries Overpaid Because of Their Work.......................................5
             Beneficiaries Not Overpaid Despite Earnings on the MEF ......................7

    Sample Cases with Earnings SSA Evaluated Prior to our Audit .......................8

             Beneficiaries Overpaid Because of Their Work.......................................8
             Beneficiaries Not Overpaid Despite Earnings on the MEF ......................8

    Status of Beneficiaries as of September 2003 ..................................................8

CONCLUSIONS AND RECOMMENDATIONS.....................................................10

OTHER MATTERS ...............................................................................................11

APPENDICES

APPENDIX A – Substantial Gainful Activity

APPENDIX B – Sample Cases: Disabilities and Types of Beneficiaries

APPENDIX C – Scope, Methodology and Sample Results

APPENDIX D – Reasons Why Some Beneficiaries Were Not Overpaid Despite
             Earnings

APPENDIX E – Improvements to the Disability Programs

APPENDIX F – Agency Comments

APPENDIX G – OIG Contacts and Staff Acknowledgments




Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)
                                                                           Acronyms
CDR               Continuing Disability Review

CFR               Code of Federal Regulations

MEF               Master Earnings File

SGA               Substantial Gainful Activity

SSA               Social Security Administration

U.S.C.            United States Code




Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)
                                                                                 Introduction
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA)
evaluated earnings reported to the Master Earnings File (MEF) for disabled individuals
receiving benefits under Title II of the Social Security Act.1

BACKGROUND

Title II of the Social Security Act provides benefits to individuals who—having insured
themselves for benefits through sufficient, recent work under Social Security-covered
employment—have lost their ability to work due to a severe, long-term disability.2 In
addition, the program also provides benefits to disabled adult children and disabled
widow(er)s of insured workers.3 The number of beneficiaries and total monthly benefits
paid in December 2002 are shown in the table below.4

                                          BENEFICIARIES                            BENEFITS PAID
       December 2002
                                     Number               Percent         Dollars (millions)  Percent
Disabled Workers                       5,539,597                85%                    $4,622             90%
Disabled Adult Children                  744,532                 12%                    $410               8%
Disabled Widow(er)s                      207,365                   3%                   $114               2%
      Total                            6,491,494                100%                   $5,146             100%


THE DEFINITION OF DISABILITY

An individual is considered disabled if he or she is unable to engage in any substantial
gainful activity (SGA) because of a medically determinable impairment which: 1) can be
expected to result in death; or 2) has lasted (or can be expected to last) for a continuous
period of at least 12 months.5


1
    In August 2003, we issued an early alert to SSA informing the Agency of our preliminary audit findings.
2
  42 U.S.C. §§ 423, et. seq.(2003), (§§ 223 et. seq. of the Social Security Act (2003)). Generally, when
disabled workers are entitled to benefits, their spouses and children may also be entitled as auxiliary
beneficiaries (42 §§ U.S.C. 402 (b) et. seq. (2003); §§ 202 (b), (c), and (d) of the Social Security Act
(2003)).
3
    42 U.S.C. §§ 402 (d) et. seq. (2003), (§§ 202 (d), (e), and (f) of the Social Security Act (2003)).
4
 SSA, Annual Statistical Report on the Social Security Disability Insurance Program, 2002,
Table 3 (p. 32).
5
    42 U.S.C. § 423 (d)(1) (2003), (§ 223 (d)(1) of the Social Security Act (2003)).



Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)                                   1
The Social Security Act grants SSA the authority to establish regulations outlining the
criteria for determining when services performed or earnings derived from services
demonstrate an individual's ability to engage in SGA.6

HOW WORK AFFECTS ENTITLEMENT TO BENEFITS

One of SSA’s objectives is to increase employment for people with disabilities.7 For this
reason, beneficiaries who continue to have disabling conditions are granted trial work
periods during which they may test their ability to work while still receiving their benefits.
In the Agency’s Fiscal Year 2003 Performance and Accountability Report, SSA
indicated that 7,162 disabled adult workers began trial work periods in 2002.8

                             Generally, when 9 trial work months are successfully
Trial Work                   completed within a 60-month period, SSA should evaluate the
Period                       beneficiary's work activity to determine whether the individual
                             is able to engage in SGA. If a beneficiary demonstrates the
ability to engage in SGA after the trial work period ends, the Agency determines that the
individual's disability has ceased and benefit payments end after a 3-month grace
period.

                              If a beneficiary still has a disabling impairment but continues
Extended Period of            to work despite his or her disability, benefits can be reinstated
Eligibility                   during the 36-month period after the trial work period. SSA
                              will pay benefits for any month during this 36-month extended
period of eligibility in which the beneficiary does not engage in SGA (provided the
beneficiary continues to have a disabling impairment). If the beneficiary engages in
SGA at any time after the extended period of eligibility, benefits terminate.9

Reestablishing                   Individuals whose entitlement to benefits terminated because
                                 of SGA may become entitled again, if they are no longer
Entitlement
                                 engaging in SGA and they still have disabling impairments.




6
 42 U.S.C. § 423 (d)(4)(A) (2003), (§ 223 (d)(4)(A) of the Social Security Act (2003)). In 2004, SSA
generally considers earnings of more than $810 per month ($9,720 per year) to represent SGA. (For
more information about SGA, see Appendix A.)
7
    SSA, Strategic Plan, 2003-2008, p. 16.
8
  SSA noted in its Fiscal Year 2001 Performance and Accountability Report that 2 or more years may
pass before individuals inform the Agency of their return to work. Therefore, the number of beneficiaries
for whom SSA records trial work period data depends on the efficiency with which the Agency discovers
and evaluates beneficiaries' work activity.
9
 SSA reported that it terminated benefits to 29,308 disabled beneficiaries during calendar year
2002 because the beneficiaries were performing SGA. (SSA, Annual Statistical Report on the Social
Security Disability Insurance Program, 2002, Table 45, p. 114.)


Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)                               2
DETECTING AND EVALUATING UNREPORTED EARNINGS

Individuals may no longer be entitled to disability benefits if their impairments improve or
they demonstrate their ability to engage in SGA by working. For this reason, SSA
conducts medical or work-related continuing disability reviews (CDR) to determine
whether beneficiaries continue to be disabled and entitled to benefits. Because an
individual's entitlement to benefits is based on the determination that he or she does not
have the ability to engage in SGA, SSA must perform a CDR when there is an indication
that the beneficiary has returned to work.10

Although disabled Title II beneficiaries are required to report work activity,11 individuals
often fail to report their earnings. Consequently, SSA developed the Continuing
Disability Review Enforcement Operation. This enforcement process compares
earnings reported on the MEF to the benefit rolls to alert the Agency of disabled
beneficiaries with potentially unevaluated substantial earnings after disability onset.12

Because of SSA’s limited resources and competing workloads, the Agency limits the
number of work-related CDRs that are performed as a result of earnings identified
through its enforcement process. Although earnings may be identified through
enforcements, SSA's policy permits screening out cases for work-related CDRs if the
earnings are below the Agency's pre-defined "screen-out" amounts. Limiting work-
related CDRs to enforcement cases with higher earnings allows SSA to use its
resources to develop only those cases that the Agency believes are more likely to
involve SGA.13

IMPROVING WORK-RELATED CDRs

SSA is developing an automated system—called eWork—to control and process
work-related CDRs. By replacing the current manual, labor-intensive paper process
with an automated system and storing data in a centralized national database, SSA
hopes to improve the processing of work-related CDRs. The Agency plans to
implement eWork in Fiscal Year 2004. (See Appendix E for other efforts being taken by
SSA to improve the disability programs.)




10
 20 CFR § 404.1590(b)(5) (2003). SSA estimates that it takes approximately 6.6 hours to complete a
work-related CDR.
11
     20 CFR § 404.1588 (2003).
12
  Because earnings posted to an individual's earnings record may include amounts that are not related to
current work (e.g., bonuses, termination pay and sick pay), SSA must evaluate the earnings to determine
whether they represent earnings from SGA performed after entitlement to disability benefits began.
13
  This screen-out process is a means of identifying individuals who most likely engaged in SGA. It does
not change the definitions of trial work or SGA.


Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)                            3
                                                            Results of Review
SSA evaluated the earnings reported on the MEF for some individuals receiving
disability benefits as of March 2002. However, we found that a substantial portion of the
earnings were not evaluated by the Agency. Our review of 275 sample cases found
SSA did not evaluate all the earnings of 113 beneficiaries (41 percent), but the Agency
did evaluate the earnings of the remaining 162 beneficiaries (59 percent).14

Based on the results of our
sample, we estimate that                          Overpayments From Work
approximately
171,620 beneficiaries were                       Over-                 Over-
overpaid $3.15 billion in                    payments Not            payments
disability benefits because of                 Identified,           Identified,
               15                                                   $1.78 billion
work activity. Further, we                    $1.37  billion
                                                 (43%)                 (57%)
estimate that SSA had identified
$1.78 billion in overpayments for
about 117,320 beneficiaries.
However, we estimate $1.37 billion in overpayments to approximately
63,000 beneficiaries went undetected by the Agency.16

Additionally, we estimate that

        About 39,100 individuals receiving disability benefits (of the estimated
         63,000 beneficiaries described above) were actually no longer entitled to benefits
         because of their substantial work; and

        SSA was unaware that approximately 34,760 disability beneficiaries (of
         approximately 245,480 beneficiaries) engaged in trial work.




14
  Projecting the 113 and 162 cases to the population, we estimate that SSA did not investigate the
earnings for approximately 245,480 beneficiaries; whereas SSA investigated the earnings for
approximately 351,940 beneficiaries. For information about the disabilities of the 275 individuals in our
sample, see Appendix B.
15
  When primary workers are ineligible for benefits because of their SGA, any auxiliary beneficiaries
(e.g., spouses and children) are also ineligible. Our overpayment calculations and estimates include
overpayments to the working beneficiaries as well as overpayments to auxiliary beneficiaries that were
caused by the SGA performed by primary workers.
16
   The estimated 63,000 beneficiaries includes about 8,700 beneficiaries for whom SSA identified some
overpayments that resulted from the beneficiaries' work activity, but not all overpayments. For
information about our sampling methodology, see Appendix C.



Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)                                4
SAMPLE CASES WITH EARNINGS SSA DID NOT EVALUATE PRIOR
TO OUR AUDIT
SSA did not evaluate all the earnings reported on the MEF for 113 beneficiaries in our
sample. Of these 113 beneficiaries,

         29 were overpaid because of their work;
         78 were not overpaid; and
         6 were still being evaluated by SSA as of February 2004 to determine whether
          benefit ineligibility occurred because of work activity.17

BENEFICIARIES OVERPAID BECAUSE OF THEIR WORK

Because SSA did not previously evaluate all of the earnings reported on the MEF for
29 individuals in our sample, the Agency was unaware that these beneficiaries were
overpaid $628,767 for an average period of 46 months.18 This includes

         10 cases in which SSA was unaware that the beneficiaries were not due some of
          the benefits paid to them because of their work in an extended period of
          eligibility; and
         18 cases in which SSA was unaware that benefit entitlement terminated because
          the extended periods of eligibility ended and work continued.

Opportunities Existed to Identify and Evaluate Earnings

We identified past opportunities in which SSA may have been able to minimize or avoid
the $628,767 in overpayments that resulted from the work activity of the
29 beneficiaries. The following describes some past opportunities SSA had to identify
and evaluate the earnings to determine whether the individuals engaged in trial work
activity or SGA.

                   Although SSA compares the MEF to the benefit rolls to detect
Earnings           cases with unreported earnings, we found that this enforcement
Enforcements       process did not always result in work-related CDRs. Of the
                   29 beneficiaries in our sample with previously undiscovered
overpayments, 21 beneficiaries had earnings that: 1) were identified by SSA through its
enforcement process, and 2) exceeded the Agency’s “screen-out” threshold
requirements. However, the earnings were not previously evaluated and, as a result,
the Agency was unaware the individuals were ineligible for benefits.19
17
  When SSA completes its evaluation of the earnings reported on the MEF for these beneficiaries,
additional overpayments may be identified.
18
     Overpayment periods ranged from 12 months to 125 months (approximately 10 years).
19
  Projecting these 21 cases to the population, we estimate that approximately 45,620 beneficiaries had
substantial earnings identified through SSA’s enforcement operation, but the Agency did not evaluate
them.


Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)                            5
For example, one individual in our sample worked from 1999 through 2001 and had
earnings that ranged from $17,034 to $19,477. The earnings for each of these years
were identified through SSA’s enforcement process, but SSA did not evaluate the
earnings and determine the individual engaged in SGA until requested to do so as part
of our audit. This beneficiary exhausted her trial work period in 1999 and was overpaid
$33,360 between October 1999 and December 2003.

                      Benefit amounts are based on the level of earnings resulting from
Benefit
                      Social Security-covered employment. Therefore, when disabled
Increases
                      individuals return to work, their benefit payments may increase
                      (should they remain entitled to receive them). SSA periodically
recalculates benefit amounts paid to individuals—considering recent earnings that were
not previously considered in the benefit calculation. In 21 sample cases, SSA
performed these benefit recalculations and increased the benefits paid to the
beneficiaries without also evaluating the earnings to determine whether trial work
activity or SGA was performed.20

For example, the same disabled beneficiary described above had earnings in
1999 through 2001 that were significant enough to cause her benefit amount to
increase. SSA processed benefit recalculations and increased her benefit payments
each year based on her earnings. However, the Agency did not evaluate these
earnings and, therefore, did not determine the individual engaged in SGA until after our
audit. As a result, SSA considered the earnings for benefit calculation purposes, but did
not evaluate the earnings to determine whether she remained entitled to benefits.

Medical               Because individuals receiving disability benefits must have their
CDRs                  cases reevaluated periodically to ensure they remain entitled to
                      benefits, CDRs provide additional opportunities for SSA to identify
                      and evaluate work activity that might otherwise have been
unreported. However, we found 8 cases in which medical CDRs—performed after the
beneficiaries returned to work—did not result in reviews of the reported earnings.
Based on these medical CDRs, SSA determined that the individuals remained disabled
and, thus, their benefits continued, despite their return to work.21




20
  Projecting these 21 cases to the population, we estimate that SSA performed benefit recalculations for
approximately 45,620 beneficiaries and increased the benefits paid to them. However, the earnings
represented SGA and the beneficiaries were not entitled to all of the benefits paid them.
21
  Projecting these 8 cases to the population, we estimate that SSA performed medical CDRs for
17,380 beneficiaries and determined their disabilities continued, despite the earnings on the MEF that the
Agency later determined were substantial.


Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)                              6
                         SSA issues mailer forms to some disabled beneficiaries to solicit
CDR                      key information about their conditions and attempts to work.
Mailers                  Based on the responses received on completed mailers, the
                         Agency may initiate full medical CDRs.

For 5 sample cases (of the 29 who had overpayments because SSA did not evaluate
the beneficiaries’ earnings), SSA received CDR mailer forms from the beneficiaries and
the Agency decided to defer full medical CDRs even though the individuals engaged in
work activity.22 This included

        3 individuals who reported their work activity in their responses to the Agency’s
         mailer questionnaires, but for whom SSA did not initiate full medical CDRs or
         initiate work-related CDRs to evaluate the work activity; and

        2 individuals whose earnings were reported on the MEF at the time the Agency
         decided to defer full medical CDRs. Had SSA evaluated the earnings reported
         on the MEF, full medical CDRs or work-related CDRs may have resulted in
         overpayments being avoided or minimized.

For example, the same beneficiary whose earnings were not evaluated despite being
used for benefit recalculation purposes was issued a CDR mailer questionnaire in
February 2002. In her reply to SSA, she indicated that she worked. However, despite
her self-reported work activity, the Agency decided in July 2002 to defer a full medical
CDR and set a June 2009 date to review her medical eligibility again.

BENEFICIARIES NOT OVERPAID DESPITE EARNINGS ON THE MEF

For various reasons, although SSA did not evaluate the earnings reported on the MEF
for 73 individuals, no overpayments resulted. For example, SSA determined the
earnings for 16 beneficiaries did not result from SGA because they resulted from
unsuccessful work attempts. (For additional reasons why these 73 beneficiaries were
not overpaid despite the earnings reported on the MEF, see Appendix D.)

Although these individuals were not overpaid as a result of the earnings, SSA was
unaware that some disabled beneficiaries in our sample engaged in trial work because
the Agency did not evaluate the earnings prior to our audit. In total, SSA was unaware
that 12 beneficiaries engaged in trial work. Projecting the results of our sample to the
population, we estimate that SSA was unaware that about 26,060 beneficiaries
engaged in trial work.




22
  Projecting these 5 cases to the population, we estimate that SSA decided to defer full medical CDRs
for 10,860 beneficiaries based on their responses to the mailers, despite the earnings on the MEF that
were later determined by the Agency to be substantial.


Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)                             7
SAMPLE CASES WITH EARNINGS SSA EVALUATED PRIOR TO OUR
AUDIT
Of the 162 beneficiaries whose earnings were evaluated by SSA prior to our audit,

        50 were overpaid because of their work; and
        112 were not overpaid despite the earnings on the MEF.

BENEFICIARIES OVERPAID BECAUSE OF THEIR WORK

Prior to our audit, SSA evaluated the earnings of 50 beneficiaries and determined they
were not entitled to some of the benefits previously paid to them because of their work
activity. On average, the Agency completed its evaluations of the earnings and
calculated the resulting overpayments 30 months after the work first caused benefit
ineligibility. In total, SSA assessed overpayments of $820,354.23 Based on our sample,
we estimate that SSA identified $1.78 billion in overpayments resulting from disabled
beneficiaries’ work activity.

BENEFICIARIES NOT OVERPAID DESPITE EARNINGS ON THE MEF

In total, 112 beneficiaries—whose earnings were previously evaluated by SSA prior to
our audit—were entitled to the benefits paid to them despite their earnings on the MEF.
(See Appendix D for reasons why these 112 beneficiaries were not overpaid despite the
earnings reported on the MEF.)

STATUS OF BENEFICIARIES AS OF SEPTEMBER 2003

The following table describes the benefit entitlement status of the 275 beneficiaries in
our sample as of September 2003.

                                                                                 Number of
                       Status as of September 2003                                              Percent
                                                                                Beneficiaries
 Beneficiaries have not engaged in trial work since entitlement to disability
                                                                                     37             13%
    benefits began.
 Beneficiaries engaged in trial work only, no loss of benefits.                      26              9%
 Beneficiaries completed trial work periods and were in the extended
    period of eligibility but were entitled to benefits because they did not        142             52%
    engage in SGA.
 Beneficiaries completed trial work periods and were in the extended
    period of eligibility but were not entitled to benefits because they               2             1%
    engaged in SGA.



23
   This includes overpayments to the 50 individuals for whom SSA identified all overpayments resulting
from work activity prior to our audit, and 4 individuals for whom SSA identified some (but not all)
overpayments prior to our audit.


Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)                             8
                                                                             Number of
                      Status as of September 2003                                           Percent
                                                                            Beneficiaries
 Beneficiaries continued to engage in SGA after their extended periods of
                                                                                 22             8%
    eligibility expired and entitlement to benefits terminated.
 Entitlement to benefits terminated for reasons unrelated to SGA (e.g.,
                                                                                 16             6%
     death).
 Beneficiaries’ previous entitlement terminated because of SGA.
    However, they subsequently stopped SGA and were re-entitled to               30            11%
    benefits.
Total                                                                           275           100%




Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)                       9
                                                        Conclusions and
                                                       Recommendations
During the period under review, we estimate that approximately $3.15 billion in
overpayments existed due to disabled beneficiaries’ work activity. SSA’s current
practices allowed the Agency to identify approximately 57 percent of these
overpayments. However, we estimate the remaining 43 percent—approximately
$1.37 billion in overpayments—went undetected by the Agency because SSA did not
evaluate all earnings reported for individuals receiving Title II disability benefits.

We realize that SSA is making an effort to improve its processing of work-related CDRs
by developing an automated processing system. Further, we acknowledge that SSA
has limited resources with which to perform its many responsibilities. However,
because a significant amount of Title II funds have been overpaid, we believe that
additional attention should be devoted to this important workload. Also, by reducing this
workload, SSA would be taking steps to implement the President’s Management
Agenda goal of improving financial performance. We believe the recommendations
listed below will help the Agency identify and recover significant undetected
overpayments.

1. Review past cases where significant earnings are present on the MEF and no
   determination has been made regarding trial work and/or SGA.24

2. Ensure that future earnings enforcements are adequately controlled by management
   and resolved timely.

3. Ensure that earnings reported on the MEF or disclosed on beneficiary-completed
   forms are evaluated when medical CDRs are performed or mailer CDR forms are
   received.

4. Ensure that earnings resulting in benefit increases are evaluated to determine
   whether trial work activity and/or SGA were performed.

AGENCY COMMENTS

SSA agreed with our recommendations. Specifically, SSA will review past cases where
it is cost beneficial to do so and its resources permit. SSA also informed us that it
recently integrated its continuing disability review enforcement operation with its
disability control file and the Agency’s new eWork database will improve the process.
Additionally, SSA is providing training to employees to ensure that all reported earnings
are evaluated. (See Appendix F for SSA’s comments.)


24
     Recommendation 1 was revised based on additional information SSA provided on June 29, 2004.


Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)                           10
                                                                 Other Matters
IMPACT ON FRAUD INVESTIGATIONS WHEN SSA DOES NOT
EVALUATE EARNINGS TIMELY
The Office of the Inspector General, Office of Investigations conducts and coordinates
investigative activity related to fraud, waste, abuse, and mismanagement of SSA’s
programs and operations. This includes investigating cases involving unreported work
activity.

For example, a disability beneficiary who became entitled in June 1990 subsequently
engaged in substantial work while receiving disability benefits.25 Earnings posted to the
individual’s earnings record totaled $307,438 for the years 1990 to 2002. The Office of
Investigations established a case of disability fraud, but the U.S. Attorney’s Office
declined to prosecute because SSA had received earnings enforcement alerts but did
not timely evaluate the earnings and stop the benefit payments. The total overpayment
resulting from the beneficiary’s work was $131,513. SSA recorded this overpayment on
the beneficiary’s record in February 2000, but as of November 2003, the individual had
not repaid any of the funds to SSA.




25
     This beneficiary was not part of our audit sample.


Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)              11
                                             Appendices




Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)
                                                                                       Appendix A

Substantial Gainful Activity
An individual is considered disabled if he or she is unable to engage in any substantial
gainful activity (SGA) because of an impairment which

         can be expected to result in death, or
         has lasted (or can be expected to last) for a continuous period of at least
          12 months.1

The Social Security Act grants the Social Security Administration (SSA) the authority to
establish regulations outlining the criteria for determining when services performed or
earnings derived from services demonstrate an individual's ability to engage in SGA.2

The Agency defines SGA as the performance of significant physical or mental activities
in work for pay or profit, or in work of a type generally performed for pay or profit.
Significant activities are useful in the accomplishment of a job or the operation of a
business and have economic value. Work may be substantial even if it is performed on
a seasonal or part-time basis, or if the individual does less, is paid less, or has less
responsibility than in previous work. Work activity is gainful if it is the kind of work
usually done for pay, whether in cash or in kind, or for profit, whether or not a profit is
realized.

In deciding whether work is SGA, all pertinent facts about the individual's work are
considered, including the nature of the duties, hours worked, productivity, pay, and any
other factors related to the value of the services. Usually, the best gauge of a person's
ability to work is the amount of pay received. In deciding whether the person is
performing SGA, only the pay that has been earned through a person's own effort is
counted. If, for example, it is necessary for an employer to provide special help for an
individual to work, the value of such special assistance may be considered a subsidy.
As such, only the earnings that are based on the individuals own productivity are used
in determining whether SGA was performed. Additionally, impairment-related work
expenses incurred by a disabled individual will be deducted from earnings before
determining whether the SGA level is met.

For calendar year 2004, the level of earnings that SSA will generally consider to reflect
SGA is $810 per month.




1
    42 U.S.C. § 423 (d)(1) (2003), (§ 223 (d)(1) of the Social Security Act (2003)).
2
    42 U.S.C. § 423 (d)(4)(A) (2003), (§ 223 (d)(4)(A) of the Social Security Act (2003)).


Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)
                                                                                         Appendix B

 Sample Cases: Disabilities and Types of
 Beneficiaries
 Table B-1 shows the disabilities of our 275 sample cases—broken out by those
 beneficiaries with or without substantial gainful activity (SGA). Table B-2 provides the
 overpayments identified by diagnosis group for those beneficiaries who engaged in
 SGA. Finally, Table B-3 shows the number of individuals in our sample by type of
 beneficiary.

                Table B-1                                                Sample Disabled Beneficiaries
                                              All Disabled
                                             Beneficiaries,                                               Total
                                                              Engaged in     No SGA       SGA Not
               Disabilities                 December 20021                                               Sample
                                                                 SGA        Identified   Determined2
                                                                                                         Cases
Mental Disorders (Other Than Retardation)        1,701,328          27             47             0          74
Diseases of the Musculoskeletal System           1,385,191          12             43             1          56
Mental Retardation                                 620,423          10             26             2          38
Diseases of the Nervous System and
  Sense Organs                                     612,180           4             21             0          25
Diseases of the Circulatory System                 584,316           9             12             1          22
Unknown                                            376,093           2              7             0           9
Injuries                                           262,822           5              7             0          12
Endocrine, Nutritional and Metabolic
 Diseases                                          259,335           2               8            0          10
Diseases of the Respiratory System                 188,897           3               1            1           5
Neoplasms                                          156,080           3               3            0           6
Infectious and Parasitic Diseases                  107,013           3               3            0           6
Diseases of the Genito-Urinary System               97,239           3               3            0           6
Diseases of the Digestive System                    83,152           1               0            1           2
Congenital Anomalies                                16,606           0               1            0           1
Diseases of the Blood and Blood Forming
  Organs                                            15,916           1               0            0           1
Diseases of the Skin and Subcutaneous
  Tissue                                            14,188           0               1            0           1
Other                                               10,715           0               1            0           1
TOTAL                                            6,491,494          85            184             6         275




 1
  Social Security Administration (SSA), Annual Statistical Report on the Social Security Disability
 Program, 2002, Table 6 (p. 36).
 2
  SSA continued to evaluate the earnings of these beneficiaries to determine whether they engaged in
 SGA.


 Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)                                  B-1
                   Table B-2:                     SGA Identified Prior to Our   SGA Identified Subsequent
    Sample Beneficiaries Who Engaged In SGA                 Audit                     to Our Audit

                                                   Number of         Over-       Number of         Over-
                     Disabilities
                                                  Beneficiaries3   payments     Beneficiaries4   payments
Mental Disorders (Other Than Retardation)                  18      $200,546                9      $119,032
Diseases of the Musculoskeletal System                       9     $226,438                3      $115,764
Mental Retardation                                           6       $82,382               4      $221,180
Diseases of the Nervous System and Sense Organs              3       $83,420               1        $7,476
Diseases of the Circulatory System                           5       $65,224               4       $34,858
Unknown                                                      1        $5,869               1        $3,343
Injuries and Poisoning                                       3       $31,456               2       $22,996
Endocrine, Nutritional and Metabolic Diseases                0            $0               2       $50,597
Diseases of the Respiratory System                           1            $0               2       $25,858
Neoplasms                                                    3       $50,172               0            $0
Infectious and Parasitic Diseases                            2       $11,213               1       $27,663
Diseases of the Genito-Urinary System                        3       $10,731               0            $0
Diseases of the Digestive System                             1       $39,373               0            $0
Congenital Anomalies                                         0            $0               0            $0
Diseases of the Blood and Blood Forming Organs               1       $13,530               0            $0
Diseases of the Skin and Subcutaneous Tissue                 0            $0               0            $0
Other                                                        0            $0               0            $0
          TOTAL                                            56      $820,354              29       $628,767




3
 Included in this group are six individuals who engaged in SGA but whose benefits were stopped timely
and no overpayments resulted.
4
 Included in this group are four individuals for whom SSA identified some overpayments resulting from
SGA prior to our audit, but additional overpayments were not identified until we requested the Agency
evaluate the earnings.


Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)                               B-2
                                                                       Number Who Engaged in
          Table B-3:                   Sample Beneficiaries
                                                                               SGA
     Type of Beneficiaries
                                     Number            Percent             Number        Percent
Disabled Workers                              254             92.4%                 83      32.7%
Disabled Adult Children                        18             6.5%                   2      11.1%
Disabled Widow(er)s                             3             1.1%                   0        0.0%
Total                                         275          100.0%                   85       30.9%




Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)                       B-3
                                                                                   Appendix C

Scope, Methodology and Sample Results
SCOPE AND METHODOLOGY
To accomplish our objective, we

       Reviewed applicable sections of the Social Security Act, the Code of Federal
        Regulations, and the Social Security Administration’s (SSA) Program Operations
        Manual System.

       Obtained a file of all disabled Title II beneficiaries from 1 of 20 Social Security
        number segments who were receiving benefits as of March 2002.1 We then
        determined which of these beneficiaries had earnings reported to the Master
        Earnings File (MEF) for years 1996 to 2000. We further narrowed this population
        by excluding cases in which

            1. the reported earnings were minimal and probably would not affect
               entitlement to benefits;

            2. the beneficiaries were entitled to disability benefits based on blindness; or

            3. the reported earnings were in the year of, or before, the beneficiaries’
               initial benefit entitlement dates.

        From this population, we selected a random sample of 275 cases and projected
        our sample results to the population.

       Determined for each sampled case whether SSA evaluated the reported
        earnings.2 Specifically, we confirmed with SSA whether the earnings
        represented work activity that impacted entitlement to benefits. If SSA had not
        already evaluated the reported earnings, we requested that the earnings be
        evaluated.




1
  The last 2 digits of the Social Security number are randomly assigned and can contain digits "00" to
"99.” These Social Security numbers can be categorized into 20 segments, each containing groups of
5 digits. For this audit, we selected Social Security numbers ending with the digits “55” to “59.”
2
  We referred cases with overpayments resulting from unreported work activity to the Office of the
Inspector General’s Office of Investigations to determine whether investigation of possible fraud was
appropriate.


Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)                                C-1
         Recalculated the resulting overpayments for cases in which the Agency
          determined benefit entitlement was impacted by beneficiaries’ work activity.3

         Determined—for cases in which overpayments were not detected until our
          audit—whether opportunities existed for SSA to minimize or avoid overpayments
          resulting from Substantial Gainful Activity (SGA) by identifying and evaluating the
          earnings sooner.

We performed our audit in Boston, Massachusetts between October 2002 and
December 2003. We tested the beneficiary and earnings data obtained for our audit for
accuracy and completeness and determined it to be sufficiently reliable to meet our
audit objective.

The entities audited were the Offices of Disability Determinations, Employment Support
Programs, and Disability Programs under the Deputy Commissioner for Disability and
Income Security Programs and Field Offices and Program Service Centers under the
Deputy Commissioner for Operations. We conducted our audit in accordance with
generally accepted government auditing standards.

SAMPLE RESULTS

The following tables reflect our sample results and projections.

                                 Table C-1: Population and Sample Size
    Population size (one segment)                                                              29,871
    Sample size                                                                                   275
    Estimated Number of Beneficiaries in the Universe (Population of
                                                                                             597,420
        audited segment multiplied by 20)




3
 Our overpayment totals include all overpayments resulting from beneficiaries’ SGA while receiving
benefits. They also include overpayments to any auxiliary beneficiaries who were ineligible for the
benefits paid to them while primary workers engaged in SGA. To be conservative in our estimates, if we
could not confirm SSA’s posted overpayment figures on the beneficiaries’ records, we considered the
overpayment to be the lesser of (1) SSA’s figure; or (2) our recalculated figure. We considered all
overpayments that resulted from disabled beneficiaries’ SGA, regardless of when the SGA occurred.


Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)                           C-2
SAMPLE CASES WITH EARNINGS THAT SSA DID NOT EVALUATE PRIOR TO
OUR AUDIT

                                                                 Results and
    Table C-2: Cases in Which SSA Did Not Evaluate                                 Estimate in
                                                                Projections in
    Earnings Prior to Our Audit                                                   20 Segments
                                                                 1 Segment
    Total Sample Results4                                                  113
    Point Estimate                                                      12,274            245,480
       Projection lower limit                                           10,795            215,900
     Projection upper limit                                             13,796            275,920
Note: All projections are at the 90-percent confidence level.

                                                                 Results and
    Table C-3: Cases in Which SSA Did Not Identify All                             Estimate in
                                                                Projections in
    Overpayments Resulting from SGA Prior to Our Audit                            20 Segments
                                                                 1 Segment
    Total Sample Results                                                    29
    Point Estimate                                                       3,150             63,000
       Projection lower limit                                            2,288             45,760
     Projection upper limit                                              4,206             84,120
Note: All projections are at the 90-percent confidence level.

                                                                 Results and
    Table C-4: Cases in Which SSA Did Not Identify All                             Estimate in
                                                                Projections in
    Overpayments Resulting from SGA Prior to Our Audit                            20 Segments
                                                                 1 Segment
    Total Sample Results                                             $628,767
    Point Estimate                                                 $68,297,865     $1,365,957,300
       Projection lower limit                                      $37,976,339       $759,526,780
     Projection upper limit                                        $98,619,391     $1,972,387,820
Note: All projections are at the 90-percent confidence level.

    Table C-5: Cases in Which SSA Was Unaware that
                                                                 Results and
    Beneficiaries Were Ineligible for Benefits Paid                                Estimate in
                                                                Projections in
    Because They Engaged In SGA During the Extended                               20 Segments
                                                                 1 Segment
    Periods of Eligibility
    Total Sample Results                                                    11
    Point Estimate                                                       1,195             23,900
       Projection lower limit                                              677             13,540
     Projection upper limit                                              1,948             38,960
Note: All projections are at the 90-percent confidence level.




4
 Of the 113 cases with earnings that were not investigated by SSA, only 29 cases had overpayments
due to the disabled beneficiaries’ work activity—as shown in Table C-3.


Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)                            C-3
 Table C-6: Cases in Which SSA Was Unaware that                  Results and
                                                                                       Estimate in
 Beneficiaries’ Entitlement Terminated Because of               Projections in
                                                                                      20 Segments
 SGA                                                             1 Segment
 Total Sample Results                                                       18
 Point Estimate                                                          1,955               39,100
     Projection lower limit                                              1,280               25,600
     Projection upper limit                                              2,849               56,980
Note: All projections are at the 90-percent confidence level.

                                                                 Results and
 Table C-7: Cases in Which SSA Was Unaware that                                        Estimate in
                                                                Projections in
 Beneficiaries Had Engaged in Trial Work Activity                                     20 Segments
                                                                 1 Segment
 Total Sample Results                                                       16
 Point Estimate                                                          1,738               34,760
     Projection lower limit                                              1,103               22,060
     Projection upper limit                                              2,595               51,900
Note: All projections are at the 90-percent confidence level.

Cases in Which Prior Opportunities Existed to Identify and Evaluate the Earnings
for Trial Work and SGA Determinations

 Table C-8: Cases in Which Earnings from SGA Were
 Identified Through SSA’s Earnings Enforcement                    Results and
                                                                                       Estimate in
 Process and Exceeded the Agency’s Screen-Out                    Projections in
                                                                                      20 Segments
 Criteria But Were Not Evaluated for Trial Work and/or            1 Segment
 SGA Determinations
 Total Sample Results                                                            21
 Point Estimate                                                            2,281             45,620
     Projection lower limit                                                1,549             30,980
     Projection upper limit                                                3,224             64,480
Note: All projections are at the 90-percent confidence level.

 Table C-9: Cases in Which SSA Processed Benefit
                                                                  Results and
 Recalculations and Increased Benefit Amounts But Did                                  Estimate in
                                                                 Projections in
 Not Evaluate the Earnings To Determine Whether SGA                                   20 Segments
                                                                  1 Segment
 Was Involved
 Total Sample Results                                                            21
 Point Estimate                                                            2,281             45,620
     Projection lower limit                                                1,549             30,980
     Projection upper limit                                                3,224             64,480
Note: All projections are at the 90-percent confidence level.




Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)                             C-4
    Table C-10: Cases in Which Medical Continuing                   Results and
                                                                                         Estimate in
    Disability Reviews (CDR) Resulted In Findings That             Projections in
                                                                                        20 Segments
    Disabilities Continued Despite Earnings on the MEF              1 Segment
    Total Sample Results                                                         8
    Point Estimate                                                             869              17,380
       Projection lower limit                                                  437                  8,740
     Projection upper limit                                                  1,546              30,920
Note: All projections are at the 90-percent confidence level.

    Table C-11: Cases in Which CDR Mailers Resulted in              Results and
                                                                                         Estimate in
    Full Medical CDR Deferral Decisions Despite Earnings           Projections in
                                                                                        20 Segments
    on the MEF                                                      1 Segment
    Total Sample Results                                                         5
    Point Estimate                                                             543              10,860
       Projection lower limit                                                  216                  4,320
     Projection upper limit                                                  1,127              22,540
Note: All projections are at the 90-percent confidence level.

SAMPLE CASES WITH EARNINGS THAT SSA EVALUATED PRIOR TO OUR AUDIT

                                                                    Results and
    Table C-12: Number of Cases with Earnings that SSA                                   Estimate in
                                                                   Projections in
    Evaluated Prior to Our Audit                                                        20 Segments
                                                                    1 Segment
    Total Sample Results5                                                      162
    Point Estimate                                                         17,597              351,940
       Projection lower limit                                              16,075              321,500
     Projection upper limit                                                19,076              381,520
Note: All projections are at the 90-percent confidence level.

    Table C-13: Number of Individuals For Whom SSA                  Results and
                                                                                         Estimate in
    Identified All Overpayments Resulting From Work                Projections in
                                                                                        20 Segments
    Activity Prior to Our Audit                                     1 Segment
    Total Sample Results                                                        50
    Point Estimate                                                           5,431             108,620
       Projection lower limit                                                4,320              86,400
     Projection upper limit                                                  6,697             133,940
Note: All projections are at the 90-percent confidence level.




5
 Of the 162 cases with earnings investigated by SSA prior to our audit, only 50 cases resulted in
overpayments due to the disabled beneficiaries’ work activity—as shown in Table C-13.


Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)                                C-5
                                                                  Results and
    Table C-14: Overpayments Resulting From SGA That                                   Estimate in
                                                                 Projections in
    SSA Identified Prior to Our Audit                                                 20 Segments
                                                                  1 Segment
    Total Sample Results6                                              $820,354
    Point Estimate                                                  $89,108,335      $1,782,166,700
       Projection lower limit                                       $63,030,674      $1,260,613,480
     Projection upper limit                                        $115,185,997      $2,303,719,940
Note: All projections are at the 90-percent confidence level.

    Table C-15: Number of Individuals Who Engaged in SGA          Results and
                                                                                       Estimate in
    While Receiving Disability Benefits But Whose Benefits       Projections in
                                                                                      20 Segments
    Were Stopped Timely and No Overpayments Resulted              1 Segment
    Total Sample Results                                                       6
    Point Estimate                                                           652              13,040
       Projection lower limit                                                287               5,740
     Projection upper limit                                                1,269              25,380
Note: All projections are at the 90-percent confidence level.




6
 The $820,354 in overpayments includes payments to the 50 individuals identified in Table C-13 for
whom SSA identified all overpayments resulting from work activity prior to our audit—as well as
4 individuals for whom SSA identified some (but not all) overpayments prior to our audit.


Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)                             C-6
                                                                                   Appendix D

  Reasons Why Some Beneficiaries Were Not
  Overpaid Despite Earnings
  For 196 cases in our sample of 275, earnings reported on the Master Earnings File
  (MEF) did not result in overpayments. The following table describes the various
  reasons why the Social Security Administration (SSA) did not assess overpayments
  resulting from substantial gainful activity (SGA) despite the earnings reported on the
  MEF.

                                                           Cases in Which SSA      Cases in Which SSA
 Reasons Why No Overpayments Resulted Despite                 Evaluated the        Did Not Evaluate the
         Earnings Reported on the MEF                      Earnings Prior to our   Earnings Prior to Our
                                                                  Audit                   Audit
SSA determined the earnings after the trial work periods
                                                                      29                      28
   did not represent SGA.
SSA determined the earnings represented special wage
   payments (e.g., sick pay) and not remuneration for                 26                       8
   work.
The earnings represent work that was performed prior to
                                                                      15                       1
   the dates the beneficiaries’ disabilities began.
SSA determined the earnings resulted from subsidized
   work. Therefore, despite the dollar amount of the
                                                                      13                       3
   earnings, the Agency did not consider them
   substantial.
Earnings resulted from trial work activity. The
                                                                      10                      13
   beneficiaries did not complete 9 trial work months.
The beneficiaries did not work after they completed the
                                                                       7                       7
   trial work periods.
SSA determined the earnings were substantial but
   stopped benefits timely and no overpayments                         6                       0
   resulted.
SSA determined the earnings resulted from unsuccessful
                                                                       5                      16
   work attempts and did not consider them SGA.
SSA determined that the earnings were incorrectly
   posted to the MEF for the beneficiaries (the earnings               1                       2
   did not belong to the beneficiaries).
    Sub-Total                                                        112                      78
SSA continues to evaluate the earnings to determine
                                                                       0                       6
   whether beneficiaries engaged in trial work or SGA.
    Total                                                            112                      84




  Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)
                                                                             Appendix E

Improvements to the Disability Programs
TICKET TO WORK
The Ticket to Work and Work Incentives Improvement Act of 1999 required the Social
Security Administration (SSA) to establish and administer a ticket-to-work program for
disabled beneficiaries.1 Under the program, beneficiaries may use their tickets to gain
vocational rehabilitation, job training, and other community-based support services.

OTHER INITIATIVES
In response to requirements set forth in the Ticket legislation—and in keeping with
SSA’s goal of increasing employment for people with disabilities—the Agency is
developing new strategies to improve the disability programs. Below are some
examples.

Early                  SSA is developing a demonstration project that will test a variety
Intervention           of interventions for disabled beneficiaries, such as early medical
                       insurance coverage and employment supports. By providing
assistance soon after disabilities are identified, SSA may improve beneficiaries’ chances
of medical improvement and decrease the long-term reliance on the disability programs.

                       Because most forms of mental health are treatable, SSA is
Mental Health          planning a mental health treatment study that will pay for the
Treatment              costs of outpatient treatments (e.g., pharmaceutical and
                       psychotherapeutic treatments) and vocational rehabilitation that
are not covered by other insurance. SSA recently awarded a pre-design contract for the
demonstration project.

                         SSA acknowledges that the current substantial gainful activity
Benefit                  rules, and the resulting threat of losing benefits, may discourage
Offset                   individuals from attempting gainful work. SSA plans to test
                         alternatives to the current work rules, including a $1-for-
$2 benefit offset. According to the Agency, “Congress gave SSA the authority to test
sliding-scale benefit formulas as a means of mitigating the impact of earnings on benefit
levels. This would be done by phasing out benefits while allowing a beneficiary’s net
income to rise.”2 The Agency is currently developing a Statement of Work for this
demonstration project.


1
    Public Law 106-170, December 17, 1999.
2
    SSA, Performance and Accountability Report, Fiscal Year 2003, page 19.


Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)                E-1
Work Incentives       To provide disabled beneficiaries with accurate and timely
Specialists           information regarding work issues, SSA has created new field-
                      based staff positions specializing in work incentives issues. The
Agency also plans to provide additional training to all employees who have a role in
administering employment support programs.

AeDib                  SSA is developing an electronic disability system—referred to as
                       Accelerated Electronic Disability—to replace the paper-driven
process currently in use. This initiative is expected to be fully implemented in Fiscal
Year 2005.

                       If individuals have impairments which meet or medically equal
Updated Medical
                       the severity of an impairment contained in SSA’s listings, the
Listings
                       Agency will find the individuals disabled. Because impairments
                       may improve with recent advancements in medical treatment,
updating the medical listings is necessary to ensure the standards of disability are
accurate. The Agency expects to have updated most listings by the end of Fiscal
Year 2004.




Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)             E-2
                                                                           Appendix F

Agency Comments




Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)
                                            SOCIAL SECURITY

MEMORANDUM                                                                           32294-24-983


Date:      March 30, 2004                                                             Refer To: S1J-3

To:        Patrick P. O’Carroll, Jr.
           Acting Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Disabled Title II Beneficiaries with Earnings
           Reported on the Master Earnings File” (A-01-03-13019)--INFORMATION


           We appreciate OIG's efforts in conducting this review. Our comments to the recommendations
           are attached.

           Please let us know if we can be of further assistance. Staff questions can be referred to
           Janet Carbonara at extension 53568.

           Attachment:
           SSA Response




           Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)                       F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “DISABLED TITLE II BENEFICIARIES WITH EARNINGS REPORTED ON
THE MASTER EARNINGS FILE (MEF)” A-01-03-13019

We appreciate the opportunity to comment on the draft report. We take the issue of
overpayments due to work or earnings in the disability insurance program very seriously, and we
are taking a number of comprehensive measures to address this issue.

SSA generates work enforcement alerts when we receive a W-2 (or Schedule SE) for a disabled
beneficiary and it is posted to the Master Earnings File (MEF). The MEF posting runs against
the Disability Control File (DCF), which generates and controls the alert indicating a disabled
beneficiary may have returned to work and a work continuing disability review (CDR) may be
necessary for that beneficiary. During the time of the audit report, SSA did not have an interface
with the DCF and the automated Continuing Disability Review Enforcement Operation
(CDREO). The CDRCO/DCF link began with alerts generated starting in October 2003 (which
would alert at that time for earnings on the MEF for calendar year 2002). As the audit was
conducted based on beneficiaries in payment status as of March 2002, with earnings on the MEF
from 1996 to 2000, the DCF could not have been used to control those alerts. We now believe
that these interfaces will solve the earlier problem.

We also are working toward timelier processing of this workload by a phased roll-out of our new
eWork system. The eWork system will be available to all authorized personnel throughout the
nation after final roll-out later this year. The DCF is integrated with eWork, which will automate
entries and permit the interaction and exchange of work information between all offices. The
eWork system will also automate requests to employers to verify work activity and earnings;
process the preparation of decisional and due process notices; generate work receipts; provide
more detailed and useful management information; and feed into our Social Security Unified
Measurement System (SUMS), currently under construction.

Our comments to the recommendations and technical comments to the report are below.

Recommendation:

Review past cases where significant earnings are present on the MEF and no determination has
been made regarding trial work and/or SGA.

Comment:

We agree, where it is cost beneficial to do so and as our resources permit, to review the cases
with significant earnings on the MEF where no determination has been made regarding trial
work/SGA and take action.1




1
 The first recommendation and SSA’s response (shown here) were revised based on additional comments from the
Agency provided June 29, 2004.

Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)                                 F-2
Recommendation

Ensure that future earnings enforcements are adequately controlled by management and resolved
timely.

Comment

We agree. We are currently tracking earnings enforcement through the use of our automated
system, the Continuing Disability Review Enforcement Operation (CDREO), which uses the
MEF and specific criteria to identify beneficiaries who have worked and whose work activity
appears to warrant further review. The CDREO system has recently been integrated with our
DCF, which controls the earnings enforcement issues that the CDREO system generates. We are
analyzing a comprehensive matching interface that will provide verification of earnings for both
Title II and Title XVI beneficiaries and ensure that earnings enforcement actions generated by
the CDREO system are controlled to completion.

The Agency has initiated steps to improve and accelerate the process of wage reporting for
individuals who have returned to work. Changes have been made within SSA’s Regional
Offices to establish a corps of fully trained Area Work Incentive Coordinators (AWIC)
nationwide. The AWIC's primary responsibility involves the monitoring of area work incentive
workloads and activities. The roll-out of our new national database, eWork, will provide a
centralized location that will use evidence of work activity to schedule and process work-related
CDRs. We believe eWork will improve and speed up the CDR process and provide better
management information data to control work issue workloads.

Recommendation

Ensure that earnings reported on the MEF or disclosed on beneficiary-completed forms are
evaluated when medical CDRs are performed or mailer CDR forms are received.

Comment

We agree. We are providing employment support training to all direct service employees that
will, with the aid of the automation effort discussed above, help ensure that all reported earnings
are evaluated. The DCF now has the ability to control both a pending work issue and a pending
medical issue at the same time. Prior to November 2002, we could only control one issue at a
time.

Recommendation

Ensure that earnings resulting in benefit increases are evaluated to determine whether trial work
activity and/or SGA were performed.




Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)                        F-3
Comment

We agree. By enhancing our ability to control and timely resolve earnings enforcements (as
previously described), we will also be able to ensure that earnings resulting in benefit increases
are evaluated. All earnings that would be indicative of a return to work and that would result in
a benefit increase will trigger controlled earnings enforcement actions.




Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)                        F-4
                                                                           Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Rona Rustigian, Director, Policy, Planning and Technical Services Division,
   (410) 965-8071

   Judith Oliveira, Director, Boston Audit Division, (617) 565-1765

Acknowledgments
In addition to those named above:

   Jeffrey Brown, Auditor

   Kevin Joyce, IT Specialist

   Patrick Kennedy, Audit Manager

   Brennan Kraje, Statistician

   David Mazzola, Audit Manager

   Alexander Rosania, Program Analyst

   Frank Salamone, Auditor

   Charles Zaepfel, IT Specialist


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 966-1375. Refer to Common Identification Number
A-01-03-13019.




Disabled Title II Beneficiaries With Earnings on the MEF (A-01-03-13019)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
